                                         September 8, 2006




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S PROCESS FOR RELEASING
                           COMMISSION DECISION DOCUMENTS
                           (OIG-06-A-22)


This report presents the results of the subject audit. The formal comments
provided by your office on August 2, 2006, are presented in their entirety as
Appendix B to this report. Appendix C contains OIG’s response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow-up as stated in Management Directive 6.1.

If you have any questions or wish to discuss other issues, please call
Anthony Lipuma at 415-5910 or me at 415-5915.

Attachment: As stated
                     AUDIT REPORT


                    Audit of NRC’s Process for Releasing
                     Commission Decision Documents

                      OIG-06-A-22 September 8, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                              Audit of NRC’s Process for Releasing Commission Decision Documents


EXECUTIVE SUMMARY

BACKGROUND

      The Office of the Inspector General (OIG) became aware of a November
      2004 staff issue paper to the Commission, commonly known as a SECY
      Paper, which proposed a new Nuclear Regulatory Commission (NRC) policy
      for assessing the effectiveness of security measures of material licensees. In
      the subject SECY Paper, staff expressly requested a “Commission policy
      decision” before proceeding further on a framework for future agency actions.
      In a subsequent Staff Requirements Memorandum (SRM), the Commission
      approved the staff’s proposal and the mechanism for implementing the new
      policy.

      Although it seemed appropriate to inform the public of a proposed new policy,
      OIG determined that NRC did not inform the public or solicit its comments.
      Therefore, OIG initiated an audit to examine NRC’s process for making
      certain Commission decision documents, specifically SECY Papers and
      SRMs, available for public review and/or comment.

PURPOSE

      The purpose of this audit was to assess the agency’s process for evaluating
      SECY Papers and SRMs for public release pursuant to relevant legal and
      regulatory requirements.

RESULTS IN BRIEF

      NRC has a process for handling Freedom of Information Act (FOIA) requests.
      However, the agency lacks the internal controls needed to ensure compliance
      with the FOIA automatic disclosure requirements found in 5 U.S.C. 552(a)(1)
      and (a)(2). Specifically, NRC lacks a systematic process to identify if SECY
      Papers and SRMs should be released to the public pursuant to FOIA
      automatic disclosure requirements because:

                NRC does not consider these documents to convey policy or other
                 FOIA automatic disclosure-type material, and

                no agency organization is specifically assigned process ownership
                 of FOIA automatic disclosure responsibilities.




                                           i
                             Audit of NRC’s Process for Releasing Commission Decision Documents

     Absent adequate controls for a systematic review process, the agency may
     inappropriately withhold decision making documents that meet the threshold
     for public disclosure. The lack of a rigorous review process jeopardizes
     NRC’s compliance with FOIA automatic disclosure requirements and
     hampers the agency’s ability to fully achieve its strategic goal of regulatory
     openness, thereby undermining public confidence in the agency. Two
     recommendations were developed in conjunction with this audit. Their
     implementation, including a systematic review of the agency’s previously
     unpublished SECY Papers and SRMs, will provide the agency the reasonable
     assurance needed to report full FOIA compliance.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations
     (EDO) to 1) develop a program for NRC compliance with FOIA’s automatic
     disclosure requirements, and 2) conduct a documented 552(a)(1) and (a)(2)
     review of previously unpublished SECY Papers and SRMs.

OIG Analysis of Agency Comments

     On August 2, 2006, the EDO provided the agency’s formal response to this
     report stating general disagreement with the report’s finding and conclusions.
     The agency did agree, in part, to Recommendation 1 but disagreed with
     Recommendation 2. The agency’s comments are included in their entirety as
     Appendix B.

     The agency response cites a number of document reviews that ensure the
     “NRC operates in compliance with both the letter and the spirit of the
     automatic disclosure provisions” of FOIA. However, none of the processes
     (described on page 5 of their response) specifically addresses how the
     agency reviews SECY Papers or SRMs to meet these requirements. Thus,
     the agency fails to support its argument that it fully complies with FOIA’s
     automatic disclosure requirements.

     No changes were made to this report based on the agency’s response.
     Because OIG takes exception to a substantial portion of the comments,
     Appendix C contains OIG’s detailed analysis of the agency’s written
     response.




                                          ii
                   Audit of NRC’s Process for Releasing Commission Decision Documents



ABBREVIATIONS AND ACRONYMS

       CAN      Citizen's Awareness Network
       DOJ      U.S. Department of Justice
       EDO      Executive Director for Operations
       FOIA     Freedom of Information Act
       NRC      Nuclear Regulatory Commission
       OGC      Office of the General Counsel
       OIG      Office of the Inspector General
       OIS      Office of Information Services
       OMB      Office of Management and Budget
       SECY     Office of the Secretary of the Commission
       SISP     Sensitive Information Screening Project
       SRM      Staff Requirements Memorandum/Memoranda
       U.S.C.   United States Code




                                iii
   Audit of NRC’s Process for Releasing Commission Decision Documents




[Page intentionally left blank.]




                iv
                                      Audit of NRC’s Process for Releasing Commission Decision Documents


TABLE OF CONTENTS


    EXECUTIVE SUMMARY....................................................................................i

    ABBREVIATIONS AND ACRONYMS .............................................................. iii

    I.     BACKGROUND ....................................................................................... 1

    II.    PURPOSE................................................................................................ 7

    III.   FINDING .................................................................................................. 8

           A. NRC LACKS ADEQUATE INTERNAL CONTROLS NEEDED TO ENSURE
              FOIA COMPLIANCE ............................................................................... 8

    IV.    RECOMMENDATIONS.......................................................................... 19

    V.     AGENCY COMMENTS .......................................................................... 20


    APPENDICES

    A. SCOPE AND METHODOLOGY ............................................................... 23

    B. FORMAL AGENCY COMMENTS ............................................................. 25

    C. DETAILED OIG ANALYSIS OF AGENCY COMMENTS .......................... 33




                                                      v
Audit of NRC’s Process for Releasing Commission Decision Documents




[Page intentionally left blank.]




             vi
                                       Audit of NRC’s Process for Releasing Commission Decision Documents


I.    BACKGROUND

                 The Office of the Inspector General (OIG) recently completed a multi-
                 tier review of the Nuclear Regulatory Commission’s (NRC) oversight of
                 byproduct materials and sealed sources.1 During the course of these
                 reviews, OIG became aware of a November 2004 staff issue paper to
                 the Commission (commonly known as a SECY Paper) that proposed a
                 new NRC policy for assessing the effectiveness of security measures
                 of material licensees. The proposed new policy established a
                 “decision-making framework” for vulnerability assessments of materials
                 licensees to judge the effectiveness of security requirements.

                 In the subject SECY Paper, staff expressly requested a “Commission
                 policy decision” before proceeding further on a framework for future
                 agency actions. Specifically, the staff requested that consideration of
                 security event consequences for the proposed framework be limited to
                 prompt deaths noting that impacts from other consequences such as
                 economic, environmental and latent deaths were omitted. In a
                 subsequent Staff Requirements Memorandum (SRM), the Commission
                 approved the staff’s proposal and the mechanism for implementing the
                 new policy. Because it seemed appropriate to inform the public of a
                 proposed new policy, OIG sought to determine if the public was aware
                 of and had input to the policy. OIG determined that NRC did not inform
                 the public nor solicited its comments. Therefore, OIG initiated an audit
                 to examine NRC’s process for making certain Commission decision
                 documents, specifically SECY Papers and SRMs, available for public
                 review and/or comment.

                 The Freedom of Information Act of 1966 (FOIA) requires Federal
                 agencies, including NRC, to make information available to the general
                 public by request or through automatic disclosure. In addition, NRC
                 has a tradition of commitment to the principles of openness, fairness
                 and due process which are embodied in legal, regulatory and




1
 The byproduct review resulted in three audit reports: OIG-06-A-10, Audit of the Development of the National
Source Tracking System, dated February 23, 2006; OIG-06-A-11, Audit of the NRC Byproduct Materials License
Application and Review Process, dated March 10, 2006; and OIG-06-A-12, NRC's Oversight of Agreement
States’ Licensing Actions, dated April 14, 2006.

                                                     1
                                        Audit of NRC’s Process for Releasing Commission Decision Documents

                  procedural requirements that govern policy making. According to
                  NRC, “to participate in a meaningful way, the public must have access
                  to information about the design and operation of regulated facilities and
                  use of nuclear materials.”2

                           The Freedom of Information Act 3

                  In enacting the Freedom of Information Act, Congress established the
                  presumption that any person has the right to submit a written request
                  for access to records or information maintained by the Federal
                  Government. In 1996, Congress revised the FOIA statute by passing
                  the Electronic Freedom of Information Act amendments, which include
                  provisions for public access to information in an electronic format, as
                  well as establishment of electronic FOIA reading rooms through
                  agency FOIA sites on the Internet.

                  FOIA explicitly provides two distinct ways for the public to gain access
                  to records maintained by Federal agencies: (1) by a FOIA request and
                  (2) through the less commonly known automatic disclosure
                  requirements of FOIA (5 U.S.C. 552(a)(1) and (a)(2)).

                           NRC’s Strategic Goal of Openness

                  Ensuring openness in its regulatory process is one of NRC’s five
                  strategic goals. According to NRC’s FY 2004-2009 Strategic Plan, the
                  agency’s openness goal explicitly recognizes that the public must be
                  informed about and have a reasonable opportunity to participate
                  meaningfully in the agency's regulatory processes.4 Among other
                  things, NRC promotes the following Openness Strategies:



2
 Regulatory Issue Summary 2005-31, Control of Security-Related Sensitive Unclassified Non-Safeguards
Information Handled by Individuals, Firms, and Entities Subject to NRC Regulation of the Use of Source,
Byproduct, and Special Nuclear Material, dated December 22, 2005.
3
 FOIA, enacted in 1966, is a Federal law set forth in Title 5, Section 552, of the United States Code (5 U.S.C.
552), as amended. FOIA is a companion to the Privacy Act (5 U.S.C. 552a), enacted in 1974, which balances the
Government's need for information about individuals with the need to protect those individuals against
unwarranted invasions of their privacy by Federal agencies stemming from the collection, maintenance, use, and
disclosure of personal information.
4
    NRC’s FY 2004-2009 Strategic Plan, GOAL: Ensure Openness in Our Regulatory Process.




                                                      2
                  Audit of NRC’s Process for Releasing Commission Decision Documents

     Provide a fair and timely process to allow public involvement in
      NRC decision-making in matters not involving safeguards,
      classified, or proprietary information.

     Obtain early public involvement on issues most likely to
      generate substantial interest and promote two-way
      communication to enhance public confidence in the NRC's
      regulatory processes.

       Commission Level Decision Documents

SECY Papers and SRMs are the primary Commission level documents
used by the staff and Commission to communicate with each other.

       SECY Papers

The primary decision making tool of the Commission is the written
issue paper submitted by the Office of the Executive Director for
Operations, the Chief Financial Officer, or other offices reporting
directly to the Commission. Policy, rulemaking, and adjudicatory
matters, as well as general information, are provided to the
Commission for consideration in a document style and format
established specifically for the purpose. Such documents are referred
to as "SECY Papers."

The following are types of SECY Papers available for staff use
depending on its subject matter:

   Rulemaking Issue papers - promulgation of agency rules;

   Adjudicatory Issue papers - granting, suspending, revoking, or
    amending of licenses; and

   Policy Issue papers - formulation of policy.




                               3
                                         Audit of NRC’s Process for Releasing Commission Decision Documents

                            Staff Requirements Memoranda5

                    NRC's public website states that Staff Requirements Memoranda,
                    more commonly known as SRMs, are documentation of the
                    Commission's decision on written issue papers such as a SECY Paper.
                    SRMs include any:

                    •   approved modifications to the staff’s recommendation;

                    •   additional requirements or tasks to be performed by the staff
                        together with appropriate action due dates and a priority
                        designation, if appropriate; and

                    •   exceptions to the immediate public release of the SRM.


                            Public Availability of SECY Papers and SRMs

                    NRC’s “stated” policy is to immediately release SECY Papers and
                    SRMs to the public after Commission action is completed unless they
                    contain specific, limited types of information which warrant protection.
                    Specifically, NRC’s Internal Commission Procedures6 states that SECY
                    Papers will be released 10 business days after issuance or receipt by
                    the Commission. At its discretion, the Commission may authorize
                    release of a SECY Paper at an earlier time than the normal practice to
                    allow earlier public access. Conversely, the Commission and staff may
                    recommend withholding SECY Papers and SRMs using a number of
                    specific withholding categories. However, the procedures state that
                    because the Commission's stated policy is to release papers whenever
                    possible, “the use of this withholding category should be limited and,
                    when used, requires solid justification for withholding on a case by
                    case basis” [emphasis added].




5
 There are two types of Commission-produced SRMs. In addition to the “Staff Requirements Memoranda”
discussed in this section, there are “Meeting SRMs.” As indicated, “Meeting SRMs” which may or may not be
related to a staff SECY Paper, contain meeting-related information and are generally released to the public.
Because “Meeting SRMs” do not impact the public in the manner identified in this report, OIG excluded them
from further discussion.
6
    NRC’s Internal Commission Procedures, Chapter Il "Decision Documents."

                                                       4
                                         Audit of NRC’s Process for Releasing Commission Decision Documents

                              Trends in Disclosing SECY Papers and SRMs7

                   According to information provided to OIG by the Office of the Secretary
                   of the Commission, there were 2,578 SECY Papers generated at the
                   NRC from calendar year 1996 through 20058 of which 66 percent were
                   released to the public. However, Figure 1 indicates an increasing
                   trend for withholding SECY Papers from 1996 to 2005.


                                                       Figure 1
                                  SECY Paper Release Trend 1996 to 2005
                                 249     240
                 250
                         219


                 200                                       174
                                                                  160
                                                                          140
                                                                                   133     127
                 150
                                               134
     SECY                                                                                        113
     Papers
                 100




                  50



                         52       57     66      157       70      71      89      94      110     123
                   0
                       1996     1997   1998     1999    2000     2001   2002     2003    2004    2005

            1,689 Released (66%)                       Calendar Year

              889 Withheld (34%)




7
 OIG did not conduct a detailed analysis of the full population of SECY Papers and SRM to determine which
ones should or should not have been released to the public.
8
    The 1996 to 2005 SECY Papers were examined to evaluate trends in withholding of SECY documents.



                                                       5
                                          Audit of NRC’s Process for Releasing Commission Decision Documents

                 According to the information provided by the Office of the Secretary of
                 the Commission and supplemented by the agency’s public website,
                 NRC issued 1,076 total SRMs from calendar year 2001 through 2005,
                 of which 859 were SECY-related SRMs. When averaged over the
                 specified 5-year period, 72 percent of SECY-related SRMs was
                 withheld from the public.9 Figure 2 reflects a consistent pattern of
                 withholding the majority of SECY-related SRMs from public release.


                                                        Figure 2

                      SECY-Related SRM Release Trend 2001 to 2005

                                160

                                                                       140        138        142
                                140
                                                              125

                                 120


                                 100

                                                  75
                         SRMs 80

                                  60


                                  40


                                   20

                                          57
                                      0                47       43           50         42
          239 Released (28%)               2001        2002         2003
                                                                             2004
          620 Withheld (72%)                                                            2005
                                                   Calendar Year




9
  As previously noted on page 4, “Meeting SRMs” do not impact the public in the same manner identified
throughout this report. Therefore, OIG excluded “Meeting SRMs" from consideration in Figure 2. However, if
factored into the overall SRM universe, the percentages of SRMs released and withheld from the public become
42 percent and 58 percent, respectively.
                                                            6
                           Audit of NRC’s Process for Releasing Commission Decision Documents


II.   PURPOSE

          The purpose of this audit was to assess the agency’s process for
          evaluating SECY Papers and SRMs for public release pursuant to
          relevant legal and regulatory requirements.

          Appendix A provides a detailed description of the audit’s scope and
          methodology.




                                        7
                                  Audit of NRC’s Process for Releasing Commission Decision Documents


III.        FINDING

                 While NRC has a process for handling FOIA requests, the agency
                 lacks the internal controls needed to ensure compliance with FOIA’s
                 automatic disclosure requirements. Furthermore, the lack of controls
                 challenges NRC’s commitment to its strategic goal of openness to
                 keep the public informed of regulatory matters that affect them.

       A.    NRC Lacks Adequate Internal Controls Needed to Ensure FOIA
             Compliance

                 NRC lacks adequate internal controls needed to ensure compliance
                 with FOIA’s “automatic disclosure” requirements. Specifically, NRC
                 lacks a systematic process to identify if SECY Papers and SRMs
                 should be released to the public pursuant to FOIA automatic disclosure
                 requirements because:

                    NRC does not consider these documents to convey policy or other
                     FOIA automatic disclosure-type material, and

                    no agency organization is specifically assigned process ownership
                     of FOIA automatic disclosure responsibilities.

                 Absent adequate controls for a systematic review process, the agency
                 may inappropriately withhold decision making documents that meet the
                 threshold for public disclosure. As a result, NRC’s ability to ensure full
                 compliance with FOIA requirements is subject to challenge.
                 Furthermore, not providing the public with sufficient information to
                 understand and participate in NRC’s actions that affect them
                 compromises the agency’s commitment to regulate in an open and
                 transparent environment.

                 Internal Control Standards and FOIA Requirements

                 Internal controls are vital to ensure NRC’s compliance with the FOIA
                 automatic disclosure requirements and to meet the agency’s strategic
                 goal of openness.




                                               8
                                        Audit of NRC’s Process for Releasing Commission Decision Documents

                          OMB Circular A-123

                 The Office of Management and Budget (OMB) Circular A-123,
                 Management’s Responsibility for Internal Control, cites three objectives
                 of internal controls, one of which is to ensure compliance with
                 applicable laws and regulations. OMB Circular A-123 prescribes that
                 agency internal controls include the plan of organization, methods and
                 procedures adopted by management to ensure its goals are met.

                          FOIA Automatic Disclosure Requirements [552(a)(1) and
                          (a)(2)]

                 The FOIA acknowledges that agencies need to strike a balance
                 between broad disclosure of government information and protection of
                 public interest and national security. Nonetheless, FOIA subsections
                 552(a)(1) and (a)(2) require automatic disclosure of documents which
                 impact the public and have the “force and effect of law.”10

                 The U.S. Department of Justice (DOJ) cautioned Federal agencies to
                 be mindful of their statutory obligations under subsections 552(a)(1)
                 and (a)(2) as they administer FOIA programs that deal overwhelmingly
                 with subsection (a)(3) FOIA requests. According to DOJ guidance,
                 agencies need to remember that the information and records
                 encompassed by FOIA's first two subsections must be "automatically
                 available for public inspection; no demand is necessary.” Subsections
                 552(a)(1) and (a)(2) are sometimes referred to as FOIA’s “publication”
                 and “reading room” requirements.

                          Publication Requirements

                 5 U.S.C. subsection 552(a)(1)(A-E) deal with the publication of agency
                 information and requires each agency to publish a range of basic
                 information regarding its structure and operations in the Federal
                 Register for the guidance of the public. This FOIA subsection explicitly
                 provides that no person may be "adversely affected" by any agency
                 action as a result of an agency's failure to meet its publication
                 obligations. 11


10
 FOIA Update Vol. XIII No. 3, The “Automatic” Disclosure Provisions of FOIA: Subsections (a)(1) & (a)(2), dated
1992 [NLRB v. Sears, Roebuck & Co., 421 U.S. 132, 153 (1975) (quoting H.R. Rep. No. 1497, 89th Cong., 2d
Sess. 7 (1966))].
11
 FOIA Update Vol. XIII No. 3, The “Automatic” Disclosure Provisions of FOIA: Subsections (a)(1) & (a)(2), dated
1992.
                                                       9
                                        Audit of NRC’s Process for Releasing Commission Decision Documents

                          Reading Room Requirements

                 5 U.S.C. 552 subsections (a)(2)(A)-(C) provide what is commonly
                 referred to as "reading room" access and applies to the types of
                 agency records that, while not automatically published, should
                 routinely be available to the public. As noted by a former U.S. Attorney
                 General, “reading room” requirements require disclosure by agencies
                 of what might otherwise be regarded as an agency’s “secret law.”12

                 Through these subsections FOIA seeks to prevent agencies from
                 attempting to make binding that which has not been disclosed to the
                 public.

                 Scope of Documents Subject to FOIA 552(a)(1) and (a)(2)

                 Specifically, FOIA subsection 552(a)(1) requires each agency to
                 publish, among other things, information regarding its "organization,"
                 "functions," "rules of procedure," "substantive rules" and "statements of
                 general policy" in the Federal Register for the guidance of the public.
                 In addition, the groups of documents listed below are subject to FOIA’s
                 (a)(2) reading room requirements. The types of information referenced
                 in this section shall be made “available for public inspection and
                 copying --

                 (A)      final opinions, including concurring and dissenting opinions, as
                          well as orders, made in the adjudication of cases;

                 (B)      those statements of policy and interpretations which have been
                          adopted by the agency and are not published in the Federal
                          Register [emphasis added];

                 (C)      administrative staff manuals and instructions to staff that affect a
                          member of the public;

                 (D)      copies of all records, regardless of form or format, which have
                          been released to any person under paragraph (3) and




12
  FOIA Update, Vol. XIII No. 3, Automatic Disclosure Provisions of FOIA: Subsections (a)(1) & (a)(2); Attorney
General’s Memorandum on the 1974 Amendments to the Freedom of Information Act, US Department of Justice,
(February 1975).

                                                     10
                                       Audit of NRC’s Process for Releasing Commission Decision Documents

                         which, because of the nature of their subject matter, the agency
                         determines have become or are likely to become the subject of
                         subsequent requests for substantially the same records; and

                 (E)     a general index of the records referred to under subparagraph
                         (D).”

                 In addition, all “reading room” records must be indexed to provide
                 identifying information for the public. In this regard, FOIA specifically
                 states:

                 “A final order, opinion, statement of policy, interpretation, or staff
                 manual or instruction that effects a member of the public may be relied
                 on, used, or cited as precedent by an agency against a party other
                 than an agency only if –

                           (i)      it has been indexed and either made available or
                                    published as provided by this paragraph; or

                           (ii)     the party has actual and timely notice of the terms
                                    thereof.”13

                 ¾ NRC Lacks a FOIA Review Process for SECY Paper/SRM
                   Release

                 Representatives from NRC’s Offices of the Secretary of the
                 Commission and General Counsel (OGC) state that procedures are in
                 place for determining which SECY Papers and SRMs are released,
                 and conversely, withheld. While OIG recognizes that some procedures
                 are in place describing how to prepare SECY Papers and SRMs, the
                 agency’s existing guidance provides no evaluation criteria for public
                 release determinations for SECY Papers and SRMs pursuant to the
                 automatic disclosure requirements of FOIA [i.e., 552(a)(1) and (a)(2)].
                 Without an established process for compliance with FOIA
                 requirements, the agency risks the likelihood that documents have
                 been withheld from public disclosure which if properly reviewed would
                 have been made available.




13
  FOIA Update, Vol. XVII, No. 4, The Freedom of Information Act, 5 U.S.C. 552, As Amended by Public Law No.
104-231, 110 Stat. 3048 (1996).
                                                    11
                 Audit of NRC’s Process for Releasing Commission Decision Documents



Review of Agency Guidance for Designation of 552(a)(1) and (a)(2)
Responsibilities

There should be a clear, formal process for assessing whether a
document should or should not be released to the public while
expressing a need for balance between protecting public openness (an
agency goal) and common defense and security (the agency’s
mission). OIG reviewed the entire index of NRC management
directives and manual chapters to identify any documents that address
FOIA requirements, specifically the public release of documents.
Although references to FOIA activities were found, none of the internal
guidance documents at the time of our review designated a person or
group responsible for a process designed to identify documents
subject to 552(a)(1) or (a)(2) automatic release, the subsequent
redaction review of such documents, their release in whole or part, or
the required indexing.

In a March 2006 revision to NRC’s Management Directive 3.1,
Freedom of Information Act, the Director of the Office of Information
Services (OIS) was identified with responsibilities for ensuring that a
“program to administer the FOIA and the PA [Privacy Act] is effectively
implemented within NRC.” OIS also has responsibility for managing
the NRC web site that allows the public to inspect and copy records as
required by subsection (a)(2) of FOIA. However, OIG notes that this
Management Directive does not identify who in the agency has
responsibility for developing or implementing a process that defines
what documents should be reviewed for FOIA automatic disclosure
compliance and what criteria to apply during such a review.

With the public's need to know as its premise, FOIA guidance states
that agency information that affects the public must be subject to the
automatic disclosure requirements of subsections 552(a)(1) and (a)(2).
And, while many Commission decision documents direct the staff
regarding purely internal agency operations, this is not exclusively the
case. As a result, some SECY Papers and SRMs which ultimately
affect the public are withheld from automatic disclosure without being
subject to a FOIA review.

No Systematic Review for 552(a)(1) and (a)(2) Compliance

According to OGC officials, SECY Papers and SRMs do not contain
the type of information subject to FOIA’s automatic disclosure
requirements, and therefore, do not need to be reviewed for public
                            12
                  Audit of NRC’s Process for Releasing Commission Decision Documents

release. Consequently, no process exists for conducting a systematic
review of SECY Papers or SRMs pursuant to FOIA automatic
disclosure requirements. The decision to make some SECY Papers
and SRMs available to the public while others are withheld depends on
the judgment of individuals rather than a systematic review process.

NRC’s Internal Commission Procedures and management directives
provide guidance and procedures for the preparation and distribution of
SECY Papers and SRMs. The internal guidance does not provide
evaluation criteria needed to determine if in fact these decision
documents contain material subject to FOIA’s automatic disclosure
requirements. In other words, the guidance discusses ‘who’ is
responsible for ensuring a review takes place, but not ‘how’ or ‘what’ to
measure regarding the substance or sensitivity of the content. For
example,

   NRC’s Internal Commission Procedures states that the Office of the
    Secretary will adopt the sensitivity markings of the source SECY
    Paper for the associated SRM and subsequently treat the release
    of both documents accordingly. However, the procedures do not
    include a requirement to evaluate the accuracy or appropriateness
    of a SECY Paper’s markings or whether the SRM should be
    handled differently for release purposes.

   Similarly, while Management Directive 3.4, Release of Information
    to the Public, identifies that staff (in each NRC program office) is
    responsible for conducting releasability reviews, it does not define
    the criteria to be used for such a review and specifically says, in
    part, that “this directive does not govern public disclosure of
    information required by or requested under FOIA.”

The inherent risk in relying on individuals rather than a defined process
is that individuals may use differing or inaccurate criteria to assess the
sensitivity of the document which ultimately determines the
releasability of SECY Papers and SRMs.

¾ NRC Does Not Consider SECY Papers/SRMs Subject to
  Automatic Disclosure

According to agency managers and attorneys, SECY Papers and
SRMs are only intended to provide guidance, clarifications and
instructions to staff which do not affect the public. For these reasons,
agency officials take the position that neither of these type documents
requires a review for 552(a)(1) or (a)(2) subject matter. This position
                             13
                  Audit of NRC’s Process for Releasing Commission Decision Documents

effectively establishes a “safe harbor” from the requirements of FOIA
automatic disclosure whereby compliance is never at issue. However,
there is no documented agency legal position and the agency did not
cite any legal authority in support of this position.

The agency’s “safe harbor” approach to compliance hinges on the
claim that SECY Papers and SRMs do not exceed their intended use
of providing guidance, clarifications and instructions to the staff that do
not adversely affect the public. However, OIG identified that some
SECY Papers and SRMs withheld from the public appear to satisfy the
FOIA disclosure criteria under 552(a)(1) or (a)(2), including impacting
the public. These documents contain regulatory interpretations,
instructions to the staff, and statements of agency policy - each a type
of FOIA information subject to automatic release to the public. Yet,
NRC has not identified any internal controls that provide direction to
staff members developing SECY Papers and SRMs to ensure that the
information included in these documents does not exceed their
intended use as described above.

According to OGC, the lead agency for providing guidance on
government FOIA procedures and policy is the Department of Justice.
Therefore, OIG contacted a DOJ attorney who is a recognized
authority on 5 U.S.C. 552(a)(2) to discuss the status of SECY Papers
and SRMs. The DOJ representative stated that it is problematic that
NRC has predetermined that FOIA automatic disclosure requirements
do not apply to a large class of documents (i.e., SECY Papers and
SRMs) without a thorough review. As pointed out by DOJ, automatic
disclosure requirements are applicable based on the statutory criteria,
regardless of the titles the NRC has chosen for these documents.

DOJ’s brief review of NRC’s website index of SECY Papers and SRMs
revealed that these documents cover a large range of topics, including
several that appeared to be “instructions to the staff” or policy
statements (i.e., material possibly subject to automatic disclosure).
According to the DOJ representative, the clearest basis of compliance
with FOIA would require a case-by-case review of SECY Papers and
SRMs to determine 552(a)(2) applicability, or alternatively, designation
of 552(a)(2) status by document authors (once trained on applicable
standards) at the time of document creation. But, at a minimum, NRC
would benefit from some type of screening process for SECY Papers
and SRMs.

In addition, there is at least one other class of agency documents
exempted from public disclosure without a specific FOIA request,
                               14
                                        Audit of NRC’s Process for Releasing Commission Decision Documents

                 regardless of potential impact to the public. Per Commission directive,
                 and similar to SECY Papers and SRMs, agency documents marked
                 sensitive “security-related information” are automatically unavailable
                 for public view without benefit of a review pursuant to FOIA criteria for
                 automatic disclosure.14

                 Practice and Treatment Inconsistent with “Safe Harbor” Claim

                 Although NRC has adopted the position that SECY Papers and SRMs
                 are not subject to FOIA automatic disclosure, a 1994 court case
                 renders that position questionable. In the court case, NRC
                 acknowledged that SECY Papers and SRMs do contain interpretations
                 and policy changes, FOIA automatic disclosure-type material as
                 identified in 5 U.S.C. 552(a)(1) and (a)(2).

                 The above referenced court case provides one of the most notable
                 examples of the agency’s varied uses of SECY Papers and SRMs.
                 The specifics follow:

                 ¾ In a 1994 lawsuit,15 the Citizen’s Awareness Network (CAN)
                   appealed an NRC denial of a petition to the First Circuit Court on
                   the grounds that the issues presented in a series of Commission
                   documents, specifically SRMs, should have been subject to NRC
                   hearings. In its argument before the First Circuit, agency attorneys
                   took the position that the subject SRMs were policy changes or
                   “interpretations of its [NRC’s] own regulations” [emphasis added].
                   As such, NRC attorneys argued that the agency was entitled to
                   great deference and that hearings did not apply to these types of
                   actions.

                 ¾ The court agreed with the NRC characterization of the SRMs as
                   changes in policy or interpretations of agency regulations.
                   However, the court also found that these changes in policy
                   effectively constituted rulemaking, were “arbitrary and capricious,”



14
   Memorandum, A. Vietti-Cook to L. Reyes and K. Cyr, re: Staff Requirements – SECY-05-0101, Withholding
from Public Disclosure Sensitive Unclassified Information Concerning Materials Licensees and Certificate
Holders, dated October 7, 2005.
15
  Citizen’s Awareness Network, Inc., Petitioner, v. U.S. Nuclear Regulatory Commission, Respondent, and
Yankee Atomic Electric Company, Intervenor. No. 94-1562, U.S. Court of Appeals for the First Circuit; Decided
July 20, 1995.



                                                     15
                 Audit of NRC’s Process for Releasing Commission Decision Documents

and not in accordance with the hearing requirements of the Atomic
Energy Act (42 U.S.C. § 2239(a)(1)(A)). The court remanded the
matter back to the agency in accordance with notice and comment
requirements.

The SRMs referenced in the above case (and their associated SECY
Paper) dealt with allowing licensees to start decommissioning work
prior to approval of a decommissioning plan, something the court found
to have a clear effect on the public. As policy statements or
interpretations that affect the public, these documents should be
subject to FOIA automatic disclosure. Thus, as early as 1995, the
agency acknowledged that SECY Papers and SRMs can contain
statements of NRC policy and interpretations.

       Recent SECY Paper and SRM Contain Policy

NRC SECY Papers and SRMs continue to have apparent policy
implications. As previously noted in this report, during an ongoing
audit OIG learned of a November 2004 SECY Paper and its associated
SRM which established a new NRC policy for assessing the
effectiveness of licensees’ security measures, an issue that has
eventual impact on the public. In the subject SECY Paper, staff
requested that consideration of the impacts of security event
consequences be limited to prompt deaths. The staff noted that other
consequences such as economic and environmental impacts and
latent deaths were omitted from consideration when developing the
proposed decision-making framework. In their SRM response, the
Commission approved the staff’s proposed new framework and a
mechanism for use in implementing the new policy.

A subsequent SECY Paper, dated March 1, 2006, documented the
agency’s extensive use of the mechanism (i.e., a decision matrix)
presented in the approved decision-making framework to evaluate the
security vulnerability of various materials and research and test reactor
licensees. This March 2006 SECY Paper communicated the results of
the initial assessments to the Commission, stating in part:

The staff used the Commission-approved decision making framework
to evaluate the results which indicated that the security measures
already taken by the Commission are sufficient to ensure adequate
protection of the public and promote common defense and security.
The results also indicated that some select enhancements to NRC’s
regulatory framework may be warranted [emphasis added].

                             16
                  Audit of NRC’s Process for Releasing Commission Decision Documents

The above statement clearly indicates that the NRC staff adopted and
implemented the new criteria presented in the November 2004 SECY
Paper. The statement also demonstrates the impact on the public.
The decision-making framework and the subsequent evaluation results
regarding the adequacy of regulatory requirements were
communicated through the subject SECY Papers and SRM thereby
constituting either policy or instructions to staff, both which affect the
public. Therefore, evidence indicates that the SECY Papers and SRM
discussed above meet the criteria for automatic disclosure in whole or
in part pursuant to 5 U.S.C. 552 (a)(2).

¾ Inadequate Controls Lead to Uncertain FOIA and Openness
  Compliance

As described earlier, SECY Papers and SRMs lack the appropriate
reviews to determine whether individual documents should be
automatically disclosed pursuant to 552(a)(1) or (a)(2). OIG did not
conduct a comprehensive inventory or review to determine whether
other NRC documents may be missing the same disclosure reviews.
However, evidence indicates that other examples exist leading to a
level of uncertainty regarding the agency’s compliance with FOIA and
its own strategic goal for open, transparent regulation. For example, a
2005 Commission SRM directed staff to automatically exclude from
public release another entire class of documents marked as “sensitive
security information” without a systematic review to validate the
sensitive treatment.

As one Commissioner recently stated, there are a couple of classes of
information (i.e., documents marked as sensitive internal and sensitive
security-related) that at least need to be reviewed on a periodic basis
to better insure that the agency is making the right determination about
what gets marked [for public release] and what doesn't. However, to
date, similar to SECY Papers and SRMs, there is no review of these
classes of information for FOIA automatic disclosure considerations.

Summary/Conclusion

NRC internal controls pertaining to FOIA’s automatic disclosure
requirements are inadequate. Specifically, NRC lacks a defined review
process applicable to SECY Papers and SRMs to ensure full
compliance with FOIA requirements because they are considered “safe
harbor” documents. In addition, no organizational unit within the
                              17
                 Audit of NRC’s Process for Releasing Commission Decision Documents

agency has been clearly identified with ownership of a process
designed to ensure agency documents are properly reviewed for FOIA
automatic disclosure compliance. As a result, SECY Papers and
SRMs are designated for public release by individual determination
rather than by a systematic evaluation for applicability of FOIA
automatic disclosure requirements. The inherent risk in relying on
individuals rather than a defined process is that individuals may use
differing criteria to assess the sensitivity and releasability of the
document.

Historically, NRC has made SECY Papers and SRMs available to the
public at its discretion. Numerous SECY Papers and SRMs are
available for public view on the agency’s website. However, as of the
date of this report, there is an extensive collection of SECY Papers and
SRMs that have not been reviewed for public availability per FOIA
552(a)(1) and (a)(2) because they were marked as “sensitive”
information. As the CAN court case illustrates, NRC used a SECY
Paper and SRMs to convey policy which, by affecting the public, meets
the threshold for FOIA automatic disclosure. A recent set of related
SECY Papers and SRMs contain policy and/or staff instructions which
affect the public, thereby meeting the automatic disclosure
requirements. However, these unclassified documents have not been
disclosed to the public.

Since 1995, NRC has had direct evidence that its “safe harbor”
position on SECY Papers and SRMs is questionable. Yet the agency
has taken no action to institute a review process (internal controls) to
ensure public notification as required by law. Therefore, NRC fails to
meet one of the primary objectives of internal controls as stated in
OMB Circular A-123: reasonable assurance of NRC’s compliance with
laws and regulations.

NRC lacks the internal controls to determine whether SECY Papers
and SRMs meet the specific requirements for FOIA compliance. As a
result, the agency has exempted an entire class of documents without
an adequate review process or documented justification for
withholding. The lack of a rigorous review process jeopardizes NRC’s
compliance with FOIA automatic disclosure requirements and hampers
the Commission’s ability to fully achieve its strategic goal of regulatory
openness, thereby undermining public confidence in the agency.




                             18
                         Audit of NRC’s Process for Releasing Commission Decision Documents


IV.   RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1.   Develop a program for NRC compliance with FOIA’s automatic
              disclosure requirements.

         2.   Conduct a documented FOIA 552(a)(1) and (a)(2) review of
              previously unpublished SECY Papers and SRMs.




                                     19
                         Audit of NRC’s Process for Releasing Commission Decision Documents


V.   AGENCY COMMENTS

        On June 20, 2006, OIG issued its draft report to the Executive Director
        for Operations. OIG subsequently met with managers from the Office
        of the Secretary of the Commission regarding data on the public
        release of SRMs and clarified the final report as appropriate.

        On August 2, 2006, the EDO provided the agency’s formal response to
        this report stating disagreement with the report’s finding and
        conclusions. The agency agreed, in part, to Recommendation 1 which
        calls for development of a program designed to ensure SECY Papers
        and SRMs are reviewed against criteria presented in FOIA’s automatic
        disclosure sections (i.e., 552(a)(1) and (a)(2)). However, the agency
        disagreed with Recommendation 2 to perform a documented 552(a)(1)
        and (a)(2) review of previously unpublished SECY Papers and SRMs.
        The agency’s comments are included in their entirety as Appendix B.

        The central message of OIG’s report is that the agency lacks the
        internal controls to review SECY Papers and SRM documents to
        ensure compliance with FOIA’s automatic disclosure requirements.
        OMB Circular A-123 emphasizes that effective internal controls provide
        a basis for reasonable assurance of compliance with legal
        requirements. Conversely, ineffective management controls eliminate
        an agency’s reasonable assurance of compliance with legal
        requirements. The agency response cites a number of document
        reviews; however, none of these processes provides for a review of
        SECY Papers or SRMs against FOIA’s automatic disclosure
        requirements. Therefore, the agency reviews do not provide
        reasonable assurance of compliance with the legal requirements of
        FOIA automatic disclosure.

        The agency response also implies that the large number of documents
        that NRC makes public is evidence of compliance and caused
        confusion on the part of the OIG regarding discretionary release. In
        this regard, the agency response cites an example of non-compliance
        but asserts, without evidence, that such an example would be rare.

        In summary, the agency failed to support its argument that it fully
        complies with FOIA’s automatic disclosure requirements. OIG
        reiterates it’s finding that NRC lacks the internal controls needed to
        reasonably assure full compliance with FOIA and the agency’s own
        openness policy.


                                     20
                Audit of NRC’s Process for Releasing Commission Decision Documents

No changes were made to this report based on the agency’s response.
Appendix C contains OIG’s detailed analysis of the agency’s formal
comments.




                            21
   Audit of NRC’s Process for Releasing Commission Decision Documents




[Page intentionally left blank.]




               22
                        Audit of NRC’s Process for Releasing Commission Decision Documents

                                                                             Appendix A
SCOPE AND METHODOLOGY

       During a previous audit, NRC identified an issue regarding the
       agency’s apparent use of a SECY Paper and SRM to effect a change
       in NRC policy. OIG determined that the SECY Paper and related SRM
       in question were not vetted in a public forum although they represent a
       policy change. Because SECY Papers and SRMs historically cover a
       broad range of information, it is important to ensure that they are
       properly reviewed to ensure all applicable regulatory requirements are
       met.

       The purpose of this audit was to:

        assess the agency’s process for evaluating SECY Papers and
         SRMs for public release pursuant to relevant legal and regulatory
         requirements

       To address the audit objective, OIG reviewed relevant management
       controls, related documentation, and Federal statutes, including
       reviews of:

       ¾     Management Directives and Manual Chapters
       ¾     The Freedom of Information Act
       ¾     OMB Circular A-123
       ¾     GAO’s Internal Control Standards
       ¾     SECY Papers and related SRMs
       ¾     Code of Federal Regulations, Title 10
       ¾     NRC’s public website

       Auditors conducted interviews with agency and other Federal
       individuals, including:

       ¾     Headquarters’ senior managers and staff from the Offices of:
             • the Commission,
             • the Secretary of the Commission,
             • the General Counsel,
             • Information Services,
             • Nuclear Reactor Regulation,
             • Nuclear Security and Incident Response, and
             • Nuclear Material Safety and Safeguards



                                    23
                Audit of NRC’s Process for Releasing Commission Decision Documents



¾     Department of Justice

OIG conducted this audit between November 2005 and March 2006 in
accordance with generally accepted Government auditing standards
and included a review of management controls related to the objective
of this audit. The major contributors to this report were Anthony
Lipuma, Team Leader; Catherine Colleli, Audit Manager; Michael
Cash, Senior Technical Advisor, and James McGaughey, Senior
Management Analyst.




                            24
                 Audit of NRC’s Process for Releasing Commission Decision Documents

                                                                       Appendix B
FORMAL AGENCY COMMENTS




                             25
Audit of NRC’s Process for Releasing Commission Decision Documents




            26
Audit of NRC’s Process for Releasing Commission Decision Documents




            27
Audit of NRC’s Process for Releasing Commission Decision Documents




            28
Audit of NRC’s Process for Releasing Commission Decision Documents




            29
Audit of NRC’s Process for Releasing Commission Decision Documents




            30
Audit of NRC’s Process for Releasing Commission Decision Documents




            31
Audit of NRC’s Process for Releasing Commission Decision Documents




            32
                         Audit of NRC’s Process for Releasing Commission Decision Documents

                                                                              Appendix C
DETAILED OIG ANALYSIS OF AGENCY COMMENTS

        On June 20, 2006, OIG issued its draft report to the Executive Director
        for Operations. OIG subsequently met with managers from the Office
        of the Secretary of the Commission regarding data on the public
        release of SRMs and clarified the final report as appropriate. On
        August 2, 2006, the EDO provided a formal response to this report
        (see Appendix B).

        Below is OIG’s detailed analysis of the agency’s formal comments.
        Page numbers referenced correspond to those in the agency response
        included as Appendix B.

        Overview

        OIG’s central message is that the agency does not have a process
        mechanism (internal controls) to review SECY Papers and SRM
        documents to determine whether they are subject to FOIA automatic
        disclosure under 552(a)(1) and (a)(2). Absent such a process, the
        agency lacks reasonable assurance, as specified in OMB Circular A-
        123, that it fully complies with FOIA’s automatic disclosure
        requirements.

        The OIG report also questions the agency’s categorical exemption of
        SECY Papers and SRMs from FOIA automatic disclosure
        consideration. This exemption was asserted repeatedly by the Office
        of the General Counsel during our audit. However, the EDO’s
        response acknowledges that a categorical exclusion is inappropriate
        and that no specific procedure currently exists for conducting FOIA
        automatic disclosure reviews of SECY Papers and SRMs.

        The agency’s response further implies that a document marking
        practice satisfies the FOIA automatic disclosure review requirements.
        Yet, no explanation or basis as to how marking documents as “may be
        exempt from release” satisfies the FOIA requirement that the
        documents be reviewed to determine whether any portion of a
        document is releasable. The agency, therefore, has no basis upon
        which to assert full compliance with FOIA automatic disclosure
        requirements based on the review discussed in its response.




                                     33
                               Audit of NRC’s Process for Releasing Commission Decision Documents

             In summary, OIG remains convinced that NRC lacks the internal
             controls needed to ensure full compliance with FOIA’s automatic
             disclosure requirements and the agency’s own openness policy.
             Therefore, no changes have been made to the report based on the
             agency’s formal comments.

NRC Comment on Page 1, Paragraph 1

“This memorandum will not specify the statistical data errors on release of
Commission decision documents in the draft report; those have been addressed
separately with the OIG audit team by the Secretary of the Commission (SECY).”


OIG Response
OIG met with managers in the Office of the Secretary of the Commission to clarify
the statistics on the release of SRMs. The SECY staff concurred with the total
numbers of SRMs issued, but disagreed with the percentage of SRMs released to
the public because "Meeting SRMs," which are available but not identified on the
public "SRM" index, were not reflected in the draft report’s SRM chart. If factored in
the totals, the overall percentage of SRMs withheld from the public drops from 78%
to 58%. However, Meeting SRMs do not carry the same significance as SRMs
related to SECY Papers. Therefore, to provide a more accurate understanding of
the public availability of SRMs which may have impact on the public (i.e., SECY-
related SRMs), OIG's audit report will NOT reflect the population of Meeting SRMs.
As a result, OIG’s report was revised to state that 72% of SECY-related SRMs were
withheld from the public over the period 2001-2005.


NRC Comment on Page 2, Paragraphs 1 and 2

The agency states that the subject SECY Paper, and related SRM, was classified
and therefore withheld from public disclosure on the basis of FOIA exemptions 2 and
5.

OIG Response
With respect to application of the FOIA exemption, the SRM contains a marking on
the cover that states inter alia, “OFFICIAL USE ONLY May be Exempt from public
release under the Freedom of Information Act (5 U.S.C. 552) Exemption number[sic]
2, 5 Nuclear Regulatory Commission review required before public release.”
(emphasis added)




                                           34
                               Audit of NRC’s Process for Releasing Commission Decision Documents

During our audit, OIG determined that the subject SECY Paper itself was not
classified; only three of the six SECY Paper attachments were classified documents.
The SECY Paper states that it is an “OFFICIAL USE ONLY” document upon
separation from the three classified attachments. The decision-making framework
(attachment 2) also was not a classified document. Therefore, the classification
status of the attachments is not relevant to the SECY Paper, its three unclassified
attachments, or the related SRM. As a result, given the agency’s own Internal
Commission Procedure requirements, it appears that the SECY Paper and SRM
should have been released to the public. Furthermore, under 552(a)(1) and (a)(2)
requirements (i.e., FOIA automatic disclosure), the classified attachments should
have been reviewed and released in redacted form, if possible.

OIG notes that markings are added to documents in anticipation of a potential FOIA
request to alert a FOIA reviewer of the potential for non-releasable material. These
markings do not represent a determination as to the ultimate disposition of the
document. If these documents were requested under FOIA, then a detailed review
would occur to determine whether any “reasonably segregable portion” could be
released under FOIA. This review is mandated by FOIA and is incorporated into
Management Directive 3.1 which governs FOIA procedures for requested
documents. There is no detailed procedure for review of FOIA automatic disclosure
materials for reasonably segregable portion release. The marking process does not
accomplish this statutorily required purpose.


NRC Comment on Top of Page 4

The agency states that the draft audit report is “undermined by the lack of citation to
comparable documents being considered (a)(2) records by other federal agencies”
and that DOJ’s failure to include documents similar to SECY Papers and SRMs in its
own reading room “is instructive.”

OIG Response
OIG does not dispute that a large volume of documents are publicly available on
NRC’s website and OIG did credit the agency for the organizational structure of the
FOIA website. However, OIG also noted concerns about the withholding of SECY
Papers and SRMs from this website. In addition, the EDO’s comments do not
explain the means for determining what other Federal agency documents would be
“comparable.” The practice of other agencies was not the subject of OIG’s review.




                                           35
                               Audit of NRC’s Process for Releasing Commission Decision Documents

NRC Comments on Page 4, last paragraph and Page 5, Paragraphs 1 and 2

The agency’s response states that “informed reviews for public release of these
papers are accomplished in accordance with carefully considered criteria by those in
the best position to make such assessments” and “in conformance with long-
standing practice, the creator of the document makes an initial assessment of
suitability for public release, in consultation with technical experts or appropriate
advisers, as necessary.” Summarizing, the agency states that “this may fairly be
deemed to be a systematic and reliable review process.”

OIG Response
This response provides no indication that anyone in the determination or review
chain explicitly evaluates SECY Papers or SRMs against the FOIA automatic
disclosure criteria. In this regard, the reviews described by the agency are not
systematic or reliable because they do not specifically evaluate for FOIA automatic
disclosure determinations. In fact, discussions with staff and managers throughout
this audit determined that most were not familiar with the specific criteria for
automatic disclosures.


NRC Comment on Page 5, Paragraph 3

The agency comments on OIG’s assertion that “some SECY papers and SRMs that
ultimately affect the public are withheld from automatic disclosure without being
subject to a FOIA review” as being a circular argument, in that “OIG assumes what it
sets out to prove, without any independent support for the veracity of the statement.
This charge may result from a misunderstanding of the agency’s exercise of its
authority to make discretionary disclosure of documents that it otherwise has no
obligation to release to the public.”

OIG Response
The OIG reasoning is as follows. The agency has had no internal reviews to
determine whether SECY Papers or SRMS are subject to automatic disclosure
under 552(a)(1) and (a)(2). Additionally, the agency has no established basis for
categorically exempting SECY Papers and SRMs from automatic disclosure
consideration. This lack of internal controls and lack of valid exemption creates a
risk that documents are improperly withheld. In support, the OIG report documents




                                           36
                                Audit of NRC’s Process for Releasing Commission Decision Documents

two cases where SECY Papers and SRMs would meet the FOIA automatic release
criteria. Absent evidence demonstrating that the remaining SECY Papers and
SRMs are not subject to release, in whole or in part, it is more likely than not that
other SECY Papers and SRMs were improperly withheld.


NRC Comment on Page 5, Paragraph 4 and Top of Page 6

The agency response states that the “SECY paper at the center of this audit does
not purport to establish policy and is not an (a)(2) document.” Likewise, SRMs in
response to SECY Papers often provide actions to be completed and they represent,
for the most part, works in progress. “It should be clear, therefore, that since these
documents are not the end result, it will be the rare SECY paper or SRM that will
embody such statements of policy as are required to be published under (a)(1) or
released under (a)(2).”

OIG Response
Regarding the SECY Paper analyzed in the OIG report, it is clear from the face of
the document that the staff was seeking policy guidance from the Commission. In
addition, the “instructions to the staff” provided in the associated SRM resulted in
actions that in the staff’s own words “ensure adequate protection of the public and
promote common defense and security.” The finality of these determinations and
the nexus to public effect is clear. There is no additional information provided in the
agency response that alters the OIG opinion regarding the applicability of FOIA’s
automatic disclosure status to these documents.

The remaining analysis is largely a restatement of the agency’s position that SECY
Papers and SRMs generally do not contain policy. The agency response provided
earlier (on page 5, 2nd paragraph) acknowledges the risk this poses, agreeing with
the DOJ expert cited in the OIG report. However, the agency’s response admits that
in some cases SECY Papers and SRMs will meet the automatic disclosure
requirements for FOIA albeit a “rare” occurrence. The response provides no basis
as to why this would be a “rare” result. Without a structured document-by-document
review process this conclusion is not supported.


NRC Comment on Page 6, 2nd Full Paragraph

The agency response states that several initiatives were undertaken to review the
application of FOIA criteria to security-related information and to provide “clarifying
staff guidance on criteria for withholding sensitive information…” One particular task
force “specifically inquired into the Commission’s obligations and authority under
subsection (a)(2) of the FOIA.” The agency summarizes in SECY-05-0091, “Task
                                            37
                               Audit of NRC’s Process for Releasing Commission Decision Documents

Force Report on Public Disclosure of Security-Related Information” that “under 5
U.S.C. §552(a)(2), the NRC is not required to make publicly available records that
have no precedential value and do not constitute the working law of the agency.”

OIG Response
OIG acknowledges the agency’s efforts to find an appropriate balance between its
goal of openness and the need to protect sensitive security-related information.
However, the agency continues to erroneously equate a review for security
sensitivity with a review for application of the FOIA requirements. In addition, the
agency’s response in this section does not address the need to review SECY
Papers and SRM documents against FOIA’s automatic disclosure criteria.

The cited task force report (SECY-05-0091) did note that wide discretion is available
under a Sensitive Information Screening Project (SISP) review of documents subject
to the prompt disclosure requirements of 552(a)(2). Yet the task force report also
stated that (regarding current staff practices with SISP reviews) "this approach does
not satisfy the requirements of FOIA." (The emphasis is in the original text of the
report.) Going further, the task force notes that SISP reviews do not undertake a
redaction review whereas FOIA requires, "all reasonably segregable material that is
not exempt under the statute must be disclosed."

More recently, a senior agency attorney told the Commission that when an actual
FOIA request is received, a determination of whether or not a document is exempt
from disclosure is made by the officials assigned that responsibility (as opposed to
the staff's predetermination when creating a SECY Paper). The attorney added that
in the security area, initial release designations “might not necessarily be accurate
because they’re not undergoing legal review at that time.”


NRC Comment on Page 6, 3rd Full Paragraph to Page 7

The agency response highlights a number of considerations to be given to the
release of documents including homeland security and technical or security policy
considerations. According to the response, determinations must be made on a
case-by-case basis. The section concludes that OIG disagreement with the
outcome of these assessments is the basis of finding that “an (a)(2) review was not
accomplished.”




                                           38
                               Audit of NRC’s Process for Releasing Commission Decision Documents



OIG Response
This response provides no indication that anyone in the determination or review
chain explicitly considered the SECY Papers and SRMs against the criteria for
automatic disclosure. The lack of review of this entire class of Commission decision
documents against FOIA’s automatic disclosure requirements underlies the OIG
finding.


NRC Comment on Page 7, 1st Full Paragraph

The agency response states that the premature disclosure of internal deliberative
exchanges between the Commission and the staff would send conflicting messages
to the public about Commission policy still in the process of being formulated. The
agency further states that the core purpose of the FOIA is to “shed light on the
activities of government, rather than to expose all the internal recommendations,
opinions, and consultations that lead up to a final agency decision.” The agency
contends that the latter is the “very nature of the communications involved in the
SECY paper and the SRM that gave rise to this OIG audit.”

OIG Response
OIG recognizes the need for the exchanges between the staff and Commission and
does not dispute the sensitivity of pre-decisional information. However, OIG
disagrees with the agency’s contention that the SECY Paper and SRM which served
as the basis for this audit were nothing more than pre-decisional exchanges. In fact,
OIG found that the SECY Paper in question served as an end result in that it
presented specific criteria which the agency used to assess licensees’ security
measures. The subsequent SRM served as the final implementing tool which
sanctioned the agency’s use of the proposed framework.

The agency’s response in this section did not address the need to review SECY
Papers and SRM documents against FOIA’s automatic disclosure criteria. Further,
in recognition that certain documents contain material appropriately subject to non-
disclosure, FOIA provides that a document may be redacted or fully withheld.


NRC Comment on Page 7, 2nd and 3rd Full Paragraphs

The agency response states that it “vehemently” disagrees with the proposition that
SECY Papers and SRMs may contain the “secret law” of the agency.




                                           39
                                Audit of NRC’s Process for Releasing Commission Decision Documents



OIG Response
Agency action based on unpublished documents within the statutory scope of
FOIA’s automatic disclosure sections has been referred to in court decisions as
“secret law” of the agency. The agency response states that NRC does “strive to
avoid creating agency policy” through SECY Papers and SRMs but does
acknowledge that such material may exist. OIG found that such material does exist,
further supporting OIG’s conclusion that SECY Papers and SRMs may have been
inappropriately withheld from public disclosure.


NRC Comment on Page 7, 3rd Full Paragraph

The agency response states that it agrees that there is no categorical exclusion of a
class or records such as SECY Papers and SRMs. With respect to the
recommendation that all such documents, previously unpublished, undergo some
form of review, the agency states that “At best it would be overkill. At worst, it would
be extraordinarily wasteful of agency resources.”

OIG Response
The agency acknowledges the problem created by the failure to review documents
by acknowledging that there is “no categorical exemption.” Without such an
exemption the agency must have internal controls to establish a reasonable basis of
compliance. However, NRC has no internal controls for evaluating the applicability
of 552(a)(1) and (a)(2) standards as they pertain to SECY Papers and SRMs and as
such no reasonable basis for demonstrating compliance.

Costs considerations cannot be used as a basis for non-compliance. OIG does not
suggest the specific means of evaluating documents and the report notes that DOJ’s
expert suggested that the agency might benefit from some form of screening
process.


NRC Response to Recommendation 1, Bottom of Page 7, Top of Page 8

The agency agrees, in part, to this recommendation stating that the “agency’s
process provides amply for compliance with the FOIA’s (a)(2) automatic disclosure
requirements” at the time of document creation. Yet, the agency believes “it may be
appropriate to revise MD [Management Directive] 3.4 and Chapter II of the Internal
Commission Procedures to include an explicit reference to screening SECY papers
and SRMs for FOIA subsection (a)(2) considerations.”


                                            40
                               Audit of NRC’s Process for Releasing Commission Decision Documents



OIG Response
The agency recognizes that SECY Papers and SRMs have not previously been
evaluated to determine the applicability of FOIA’s automatic disclosure requirements
which reinforces OIG’s finding that full compliance with FOIA was jeopardized. OIG
notes that the current version of NRC’s Management Directive 3.4, Release of
Information to the Public, states “This directive does not govern public disclosure of
information required by or requested under FOIA.” Therefore, it is imperative to
revise Management Directive 3.4 and the Internal Commission Procedures to
include explicit reference to screening SECY Papers and SRMs for 552(a)(2)
applicability.


The agency also agrees to designate a central authority or organization as
responsible for placing 552(a)(1) and (a)(2) documents on NRC’s public web site.

OIG Response
The agency’s response does not address OIG’s concern.

As noted in the draft report, NRC’s Office of Information Services already has
responsibility for placing the releasable documents on the agency’s public web site.
OIG re-emphasizes its concern that the agency does not have a central authority or
organization responsible for implementing a process designed “to identify
documents subject to 552(a)(1) or (a)(2) automatic release, the subsequent
redaction review of such documents, their release in whole or part, or the required
indexing.”


NRC Response to Recommendation 2 on Page 8

The agency disagrees with this recommendation to conduct a review of previously
unpublished SECY Papers and SRMs for 552(a)(1) or (a)(2) applicability citing a
current “robust program” that ensures SECY Papers and SRMs “are carefully
examined for public disclosure suitability under applicable law and policy.” The
agency states that “no sensible purpose would be served” by a review of past
documents and that a “great waste” of agency resources would result.




                                           41
                              Audit of NRC’s Process for Releasing Commission Decision Documents



OIG Response
The sensible purpose to be served by this recommendation is the agency’s
reasonable assurance of full compliance with the FOIA law.

As the OIG report establishes, none of the agency’s current reviews evaluate SECY
Papers or SRMs to ascertain whether they should be automatically disclosed under
FOIA. The agency also does not identify any review that determines whether
portions of SECY Papers or SRMs can be released, another requirement of FOIA.
Because there are no management controls directing the review of documents
against the specific statutory requirements of FOIA automatic disclosure, the agency
has no basis of reasonable assurance of compliance with these statutory
requirements. In this regard, the agency response cites an example of non-
compliance but asserts, without evidence, that such an example would be rare.

Releasing thousands of documents does little for public confidence if it is later
discovered that even a small number of documents of great public interest and
importance were improperly withheld. This is especially the case when documents
are withheld in whole and not identified in publicly available indexes. For these
reasons, although the OIG report acknowledges that the NRC makes many
documents available, resource strain does not serve as a basis for ignoring FOIA
automatic disclosure requirements.




                                          42
